No.

IN THE

Supreme Court of the United States

Flomo Tealeh,
Petitioner,
v.
Ward County,
Melissa Bliss,
Sandy Richter,
Briana Jensen, and
Lenaise Clark
Respondents.

On Petition For Writ Of Certiorari To The Eighth Circuit Of The United States Court Of Appeals
APPENDIX A - K

Flomo Tealeh
1414 S. 3rd Street
Minneapolis, MN 55454
Tel. 612-601-3027
People4justice l@gmail.com
Pro Se Petitioner

Judgment, Opinion, United States Court of Appeals for the Eighth Circuit,
Tealeh v. Ward County, el al, No. 20*1611 and 20-2196 (March 5,
2021)

App.l-App.2

Order granting defendants’ cost, United States Court of Appeals for the
Eighth Circuit, Tealeh v. Ward County, el al, No. 20-1611 and 20-2196
(March 15, 2021)

App.3

Appendix A

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1611
Flomo Tealeh
Plaintiff - Appellant
v.
Ward County; Sandra Richter; Melissa Bliss; John Does 1-200, inclusive
Defendants - Appellees
No: 20-2196
Flomo Tealeh
Plaintiff - Appellant
v.
Ward County; Sandra Richter; Melissa Bliss; John Does, 1-200 inclusive
Defendants - Appellees
Appeal from U.S. District Court for the District of North Dakota - Western
(1:17-cv-00105-DLH)
(1:17-cv-00105-DLH)
JUDGMENT
Before BENTON, MELLOY, and KELLY, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.

App. 1

After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
March 05,2021

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit
/s/ Michael E. Gans

®ntteb States Court of Appeals
Jfor t|je Ctgltff) Circuit

No. 20-1611

Flomo Tealeh
Plaintiff- Appellant
v.
Ward County; Sandra Richter, Melissa Bliss; John Does 1-200, inclusive
Defendants - Appellees
No. 20-2196

Flomo Tealeh
Plaintiff- Appellant
v.
Ward County; Sandra Richter; Melissa Bliss; John Does, 1 -200 inclusive
Defendants - Appellees

Appeals from United States District Court
for the District of North Dakota - Western

App. 2

Submitted: March 1,2021
Filed: March 5, 2021
[Unpublished]

Before BENTON, MELLOY, and KELLY, Circuit Judges.

PER CURIAM.
In these consolidated appeals, Flomo Tealeh appeals the district court’s1
adverse grant of summary judgment and award of costs. After careful review of the
record and the parties’ arguments on appeal, we find no basis for reversal. See Banks
v. John Deere & Co., 829 F.3d 661,665 (8th Cir. 2016) (grant of summary judgment
is reviewed de novo); see also Winter v. Novartis Pharms. Corn., 739 F.3d 405,411
(8th Cir. 2014) (legal issues on award of costs are reviewed de novo; actual award of
costs is reviewed for abuse of discretion). Accordingly, we affirm. See 8th Cir. R.
47B.

’The Honorable Daniel L. Hovland, United States District Judge for the District
of North Dakota, adopting the report and recommendations of the Honorable Clare
R. Hochhalter, United States Magistrate Judge for the District of North Dakota.
-2-

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1611
Florao Tealeh
Appellant
v.
Ward County, et al.
Appellees
No: 20-2196
Flomo Tealeh
Appellant
v.
Ward County, et ah
Appellees

Appeal from U.S. District Court for the District of North Dakota - Western
(1:17-cv-OOl 05-DLH)
ORDER
Appellees shall recover from the appellant the sum the of $380.15 as taxable costs on
appeal.
March 15, 2021

Order Entered Under Rule 27A(a):
Clerk, U.S. Court of Appeals, Eighth Circuit
/s/ Michael E. Gans

App. 3

20-1611

Mr. Flomo Tealeh
Apt. 406
1414 S. Third Street
Minneapolis, MN 55454

Order Granting Defendants’ Summary Judgment, United States District
Court for the District of North Dakota, Tealeh u. Ward County, el al, No. 1:17.ADD6

cv-105 (February 25, 2020)

Order Granting Defendants’ Motion for cost, United States District Court for
the District of North Dakota, Tealeh v. Ward County, el al, No. l:17-cv-105
(June 2, 2020)

ADDV

Order Denying Tealeh’s Motion to Amend his Complaint and Compel, United
States District Court for the District of North Dakota, Tealeh v. Ward
County, el al, No. l:17-cv-105 (January 17, 2020)

Appendix B

.ADD4

Case l:17-cv-00105-DLH-CRH Document 64 Filed 02/25/20 Page 1 of 1
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
Flomo Tealeh,

)
)

Plaintiff,

)
)

vs.

Ward County, Sandra Richter, Melissa
Bliss, and John Does 1-200, Inclusive,
Defendants.

)
)
)
)
)
)

ORDER ADOPTING REPORT
AND RECOMMENDATION

Case No. I:l7-cv-l05

Before the Court is a Motion for Summary Judgment filed by Defendants on February 22,
2019.

See Doc. No. 367.

Magistrate Judge Clare R. Hochhalter issued a Report and

Recommendation, in which he recommended that Defendant’s motion for summary judgment be
granted. See Doc. No. 60. The parties were given until February 17,2020, to file an objection. See
Docket No. 60. The Plaintiff filed an objection on February 20,2020. See Doc. No. 62.
The Court has carefully reviewed the Report and Recommendation, the Plaintiffs objection,
and the entire record, and finds the Report and Recommendation to be persuasive. Accordingly, the
Court ADOPTS the Report and Recommendation (Docket No. 60) in its entirety and ORDERS
Defendant’s Motion for Summary Judgment (Doc. No. 37) be GRANTED.
Let judgment be entered accordingly.
IT IS SO ORDERED.
Dated this 25lh day of February, 2020,
/s/ Daniel L. Hovland
Daniel L. Hovland, District Judge
United States District Court

ADD6

Case l:17-cv-00105-DLH-CRH Document 75 Filed 06/02/20 Page 1 of 1
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
Flomo Tealeh,

)
)

Plaintiff,
vs.
Ward County, Sandra Richter, MeJissa
Bliss, and John Does 1-200, Inclusive,
Defendants.

)
)
)
)
)
)
)
)

ORDER ADOPTING REPORT
AND RECOMMENDATION

Case No. l:!7-cv-105

Before the Court is the Defendants* Motion for Costs, seeking to recover $1,512.80 in costs.
See Doc. No. 74. The Plaintiff failed to respond to the motions. On May 15, 2020, Magistrate
Judge Clare R. Hochhalter issued a Report and Recommendation, in which he recommended that
the motion for costs be granted. §ee Doc. No. 74. Plaintiff was given until May 29,2020, to file
an objection. See Docket No. 74. No objections were received.
The Court has carefully reviewed the Report and Recommendation, and the entire record,
and finds the Report and Recommendation to be persuasive. Accordingly, the Court ADOPTS the
Report and Recommendation (Docket No. 74) in its entirety and GRANTS the Defendant's Motion
for Costs (Doc. No. 66); awards the Defendants costs in the amount of $1,512.80; and directs the
Clerk’s Office to enter an amended judgment.
IT IS SO ORDERED.
Dated this 2“d day of June, 2020.
/s/ Daniel L. Holland________
Daniel L. Hovland, District Judge
United States District Court

ADD V

Case l:17-cv-00105-DLH-CRH Document 57 Filed 01/17/20 Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
Flomo Tealeh,

)

Plaintiff,
vs.
Ward County, Sandra Richter, Melissa
Bliss, and John Does 1-200, Inclusive,
Defendants.

)
)
)
)

ORDER DENYING MOTION
TO AMEND COMPLAINT
AND DENYING MOTION TO
COMPEL

)
)
)
)
)

CaseNo.: I:l7-cv-105

Before the Court is Plaintiff Flomo Tealeh’s Motion to Amend Complaint, filed on
March II, 2019 and Request to Compel, filed on March 12, 2019. Defendants oppose the
motion. (Doc. No. 50). For the reasons articulated below, these motions (Doc. No. 46, Doc. No.
47) are each DENIED.
I.

Motion to Amend Complaint
Tealeh’s motion to amend is only a paragraph in length. He gives the grounds for his

request as follows:
Plaintiff believes there is reasonable belief and/or probable cause to believe there exists
reasonable basis to believe that the Defendants also retaliated against Plaintiff by
terminating Plaintiff’s employment because of Plaintiff’s participation in a discrimination
lawsuit against a former employer. Based on the aforementioned, Plaintiff respectfully
requests a leave of court to amend the Complaint.
in his Complaint, Tealeh has already made at least two separate claims of retaliation.
(Doc. No. I, % 58-64, f 116-123). Tealeh alleges that defendants retaliated against him for
“opposing Defendant Richter’s unlawful act,” as well as for “his opposition and complaints
about the Defendant’s alleged unlawful harrassments, [sic] intimidations and/or discriminatory
practices and was done under the pretext of poor work performance.” Id. at If 117.

i

ADD4

Case l:17-cv-00105-DLH-CRH Document 57 Filed 01/17/20 Page 2 of 4

As such, in the Motion, it appears that Tealeh is not alleging any new act of retaliation,
but simply another motivation for the previously-alleged retaliatory termination. Defendants
raise several issues in their opposition to Tealeh's request, such as undue delay, unfair prejudice,
futility, and failure to comply with the scheduling order.
A.

Tealeh's Compliance with Rule 16(b)

In its original Scheduling Order issued in August 2017, the Court gave the parties until
January 2, 2018, to amend pleadings. (Doc. No. 17). In March 2018, the Court directed that a
status conference be held and suspended all pretrial deadlines “in the interim,” (Doc. No. 23).
After another status conference was held, the court issued an amended scheduling order revising
certain deadlines; however, this order did not specifically address the deadline for amending
pleadings. (Doc. No. 27). Presumably, the original January 2018 deadline to amend pleadings
would have remained in effect, as it was only suspended “in the interim” before a status
conference and was never revised. If this is indeed the case, then Tealeh's proposed amendment
comes after the scheduling order deadline.
Rule 16(b) of the Federal Rules of Civil Procedure governs such untimely requests.
When a party seeks to amend a pleading after the scheduling order deadline, “the application of
Rule 16(b)’s good-cause standard is not optional.” Sherman v. Winco Fireworks. Inc.. 532 F,3d
709, 716 (8th Cir. 2008). And the primary measure of good cause is the moving party's diligence
in attempting to comply with the order. Sherman. 532 F.3d at 716, citing Rahn v. Hawkins. 464
F.3d 813, 822 (8th Cir. 2006). A district court acts “within its discretion” when denying a motion
to amend which made no attempt to show good cause. Harris v. FedEx Nat. LTL. Inc.. 760 F.3d
780, 786 (8th Cir. 2014), citing Freeman v. Busch. 349 F.3d 582, 589 (8th Cir. 2003).

2

Case l:17-cv-00105-DLH-CRH Document 57 Filed 01/17/20 Page 3 of 4
Tealeh’s motion fails to provide any explanation as to why his allegation was not made
earlier. Tealeh was fired in May 2016, three years before this motion. He filed his lawsuit in
early 2017, two years before this motion. Yet Tealeh does not even acknowledge the delay. As
the “primary measure” of good cause is diligence, and Tealeh has not even attempted to make a
showing of diligence, this Court finds that he lacks good cause for amending his complaint after
the scheduling deadline.
B.

Teaieh’s Compliance with Rule 15(a)

The Court will entertain the possibility that Tealeh’s motion was, in fact, timely due to
the alterations to the scheduling order in this case. Assuming, arguendo, that this is the case,
Tealeh would have needed to comply with Rule 15(a) of the Federal Rules of Civil Procedure.
Rule 15(a)(2) governs amendment of pleadings after the time period for pleadings as a
matter of course have expired, as they have in this case. It allows for amendment with opposing
party’s consent — absent here — or upon leave of court. Leave of court must be “freely given. . .
when justice so requires.” F.R.C.P. 15(a)(2). Yet even under this liberal standard, parties do not
have an absolute right to amend their pleadings. Sherman. 532 F.3d at 715, citing United States
ex re], Lee y.Fairview Health Svs.. 413 F.3d 748, 749 (8th Cir. 2005). A district court properly
denies a motion to amend when "there are compelling reasons such as undue delay, bad faith, or
dilatory motive, repeated failure to cure deficiencies by amendments previously allowed, undue
prejudice to the non-moving party, or futility of the amendment” ]d., quoting Moses.com Sec..
Inc, v. Comprehensive Software Svs.. Inc.. 406 F.3d 1052, 1065 (8th Cir. 2005). Defendants
argue that denial is proper in this instance on the grounds of undue delay, unfair prejudice, and
futility.

3

Case l:17-cv-00105-DLH-CRH Document 57 Filed 01/17/20 Page 4 of 4

Considering the timing of Tealeh’s motion - nearly two years after his initial complaint,
alleging retaliation occurring between three and four years prior - the Court agrees with the
Defendants that there is no justification for the delay.
Further, Tealeh failed to comply with Civil Local Rule 5.1(C) by failing to provide his
proffered amended pleading. As such, the Court cannot engage in a futility analysis. A district
court does not abuse its discretion in denying leave to amend when a plaintiff has not submitted a
proposed amended pleading in accord with a local procedural rule. U.S. ex rel. Ravnor v. Nat'l
Rural Utilities Co-op. Fin.. Corp.. 690 F.3d 951, 958 (8th Cir. 2012). Based on Tealeh’s failure in
this respect, as well as his undue delay in bringing this motion, his Motion to Amend Pleadings
(Doc. No. 46) is DENIED.
II.

Motion to Compel
In the second motion before the Court, Tealeh requests that the Court compel Defendants

“to produce all documents including electronic records, files, fax, emails. ..” etc. He states that
he believes the Defendants “may have” concealed, falsified, or fabricated documents.
As Defendants point out, Tealeh’s request is not based on any valid discovery request and
is untimely. Defendants have already exceeded their obligations in accordance with Rule 26(a)
disclosures. As such, the Motion to Compel (Doc. No, 47) is DENIED.
IT IS SO ORDERED.
Dated this 17th day of January, 2020.
Is/ Clare R. Hochhalter
Ciare R. Hochhalter
United States Magistrate Judge

4

Report and Recommendation for defendants’ summary judgment, United
States District Court for the District of North Dakota, Tealeh v. Ward
ADDU

County, el al, No. l:17-cv-105 (February 3, 2020)

Report and Recommendation for defendants’ cost, United States District
Court for the District of North Dakota, Tealeh v. Ward County, el al, No. 1:17cv-105 (May 15, 2020)

ADDIII

Appendix C

*

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 1 of 25

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
Flomo Tealeh,

)

)
Plaintiff,
vs.
Ward County, Sandra Richter, Melissa
Bliss, and John Does 1-200, Inclusive,
Defendants.

REPORT AND RECOMMENDATION

')
)
)
)
)
)
)
)

CaseNo.: l:17-cv-105

Before the Court is Defendants' Motion for Summary Judgment (Doc. No. 37). The
presiding judge, Judge Hovland, has referred this motion to the undersigned Magistrate Judge for
preliminary consideration. For the reasons given below, I recommend that the motion for
summary judgment be GRANTED.
I.

Procedural Background
Before bringing this suit, Tealeh filed a complaint with the Equal Employment

Opportunity Commission. The Civil Rights Division of the Department of Justice subsequently
issued Tealeh a “Notice of Right to Sue Within 90 Days” on February 24, 2017. (Doc. Nos. 1-2,
1-3). Tealeh filed the instant action on May 23, 2017. (Doc. No. 1). Defendants moved for
summary judgment on February 22, 2019. (Doc. No. 37). Plaintiff filed both a response and an
amended response1, (Doc. Nos. 52, 53), and Defendants replied (Doc. No. 55).
II.

Standard of Review.
. Summary judgment is appropriate when the evidence, viewed in a light most favorable to

the non-moving party, indicates that no genuine issues of material fact exist and that the moving
i

The only difference between the responses appears to.be the addition of several lines asking the Court to
“reject the deposition” on the grounds that it was “improperly done.” (Doc. No. 53, % 11).
1

ADDU

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 2 of 25

b

party is entitled to judgment as a matter of law. Davison v. City of Minneapolis. Minn., 490 F.3d
648,654 (8th Cir. 2007); see Fed. R. Civ. P. 56(a). Summary judgment is not appropriate if there
are factual disputes that may affect the outcome of the case under the applicable substantive law.
Anderson v. Liberty Lobby. Inc.. 477 U.S. 242, 248 (1986). An issue of material fact is genuine
if the evidence would allow a reasonable jury to return a verdict for the non-moving party. Id.
The Court must inquire whether the evidence presents a sufficient disagreement to
require the submission of the case to a jury or whether the evidence is so one-sided that one party
must prevail as a matter of law. Diesel Mach.. Inc, v. B.R. Lee Indus.. Inc.. 418 F.3d 820, 832
(8th Cir. 2005). The moving party bears the responsibility of informing the court of the basis for
the motion and identifying the portions of the record which demonstrate the absence of a genuine
issue of material fact. Torgerson v. City of Rochester. 643 F.3d 1031,1042 (8th Cir. 2011). If
the movant does so, the non-moving party must submit evidentiary materials setting out specific
facts showing a genuine issue for trial,

Fed. R. Civ. P. 56(c)(1). A party may not rely on

mere denials or allegations in its pleadings. Lonesome Dove Petroleum. Inc, v. Holt 889 F.3d
510, 514 (8th Cir. 2018). “The mere existence of a scintilla of evidence in support of the
plaintiffs position will be insufficient; there must be evidence on which the jury could
reasonably find for the plaintiff.” Gibson v. Am. Greetings Com., 670 F.3d 844, 853 (8th Cir.
2012), quoting Anderson v. Liberty Lobby. Inc.. 477 U.S. 242, 252 (1986). A district court has
no obligation to “plumb the records in order to find a genuine issue of material fact.” Jain v. CVS
Pharmacy. Inc.. 779 F.3d 753, 758 (8th Cir. 2015) (quoting Barge v. Anheuser-Busch. Inc.. 87
F.3d 256,260) (8th Cir.1996).
HI.

Legal Discussion
A.

Parties at Issue

2

Case l:17-cv-00105“DLH-CRH Document 60 Filed 02/03/20 Page 3 of 25
First, the Court must determine the proper defendants. Tealeh filed this motion against
multiple defendants: Ward County, Melissa Bliss, and "John Does 1-200, inclusive.” See Doc.
No. 1. The first defendant, Ward County, was Tealeh's employer during his tenure as a Child
Protection Service Family Services Specialist III.
The next two defendants are individual employees of Ward County: Sandra Richter was
the Child Protection Services Supervisor during the first six months of Tealeh's employment, and
Melissa Bliss was the Director of Ward County Social Services during the entirety of his tenure.
It is unclear whether Tealeh intended to sue Bliss and Richter in their individual or official
capacities.
Tealeh's complaint concerns violations of Title VII of the Civil Rights Act of 1964 (with
the addition of some related state law claims, discussed below). But Title VII does not impose
liability on individual supervisors. See, Van Horn v. Best Buv Stores. L.P.. 526 F.3d 1144,1147
(8th Cir, 2008) (district court properly granted summary judgment in favor of individual
supervisor on Title VII claim because Title VII "does not provide for an action against an
individual supervisor.”) As such, any claim against Bliss or Richter, as individuals, must be
dismissed.
Even if, however, Tealeh is bringing suit against Bliss or Richter in their official
capacities, his claims still fail While there is no binding law exactly on point, the Eighth Circuit
has concluded generally that agency principles apply in the Title VII context, leading many
district courts within the circuit to hold that Title VII claims against supervisors in their official
capacity are duplicative when the same claims are pursued against the employer. See Carter v.
Military Dept of Arkansas. No. 4:18-CV-00444-KGB, 2019 WL 4741653, at *4 (E.D. Ark. Sept
27, 2019) (reviewing the relevant law and citing seven district court decisions dismissing such

3

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 4 of 25

claims as duplicative). Therefore, the Court should dismiss any claims Tealeh attempts to bring
against Bliss or Richter in their official capacities.
As for “John Does 1-200, inclusive,” Tealeh explains in his Complaint that w[t]he true
names and capacities whether individual, corporate, or associate, or otherwise of defendants
named herein as John Doe 1 through 200, inclusive, are unknown to Plaintiff who therefore sues
said defendants by such fictitious names and Plaintiff will ask leave of Court to amend this
complaint to state the true names and capacities when the same have been ascertained.” Doc, No.
1, p. 3. However, Tealeh has never requested to amend his complaint to further specify the
identities of these parties, and it has been two and a half years since Tealeh brought this action.
Hie dismissal of a fictitious party, while inappropriate at the beginning of litigation, is proper
when it is apparent that “the true identity of the defendant cannot be learned through discovery or
the court’s intervention.” Munz v. Parr. 758 F.2d 1254, 1257 (8th Cir. 1985). Here, Tealeh has
made no attempts to confirm the existence of a single defendant beyond those named, let alone
200 of them, nor has he attempted in any way to prosecute these claims. As such, I recommend
that the Court dismiss the claims against John Doe 1-200 on its own motion.
Thus, Ward County is the sole remaining defendant in the case. The claims themselves
must now be considered.
B.

Tealeh’s Claims

In his Complaint, Tealeh makes a variety of claims regarding employment
discrimination. The majority are brought pursuant to Title VII of the Civil Rights Act of 1964,42
U.S.C.A. §§ 2000e et seq. However, some appear to arise under the North Dakota Human Rights
Act.

4

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 5 of 25
Teaieh's specific legal contentions are somewhat difficult to parse. The first half of
Tealeh's complaint contains many factual allegations, some of which are intermingled with legal
conclusions. The latter half of the complaint sets out seven sections describing various claims.
They are listed below (numbering added for clarity):
1.
2.
3.
4.

5.
6.
7.

Disparate Treatment Claim Id. at If 48.
Act of Retaliation Id. at % 58.
Hostile Work Environment Claim Id. at f 65.
Harassments/Intimidations and Disparagements of Plaintiff Id. at 1f 66.
Disparate Treatment of Plaintiff Id at ^ 76.
Failure to Investigate Complaints and Prevent Discrimination Claim Id. at f 111.
Retaliatory Termination Claim Id. at f 116.

As is evident from their nomenclature, some of these claims overlap. They can be
roughly sorted into three broad categories: disparate treatment, retaliation, and hostile work
environment.
1.

Disparate Treatment Claims

Claims 1 and 5 of Tealeh's complaint (“Disparate Treatment Claim” and “Disparate
Treatment of Plaintiff’) are obviously similar, and are analyzed together below.
Tealeh recounts a variety of actions by Ward County and its agents that he claims were
discriminatory. He claims that he was excluded from a meeting and/or meetings, that he was
“forced to conceal his official name” and “pressured” to change his name, that his employer
“published unsubstantiated allegations” about him, intimidated him, and fired him.
The ultimate question in every employment discrimination case involving a claim of
disparate treatment is whether .the plaintiff was the victim of intentional discrimination. Reeves
v. Sanderson Pjumbing Prod.. Inc.. 530 U.S. 133, 153, 120 S. Ct. 2097,2111, 147 L. Ed. 2d 105
(2000). To survive a defendant's motion for summary judgment in an employment

5

r

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 6 of 25

'

discrimination case, a plaintiff must either present direct evidence of unlawful discrimination, or
create an inference of unlawful discrimination under the burden-shifting analysis of McDonnell
Douglas Coro, v. Green. 411 U.S. 792,93 S.Ct. 1817,36 L.Ed.2d 668 (1973). Young y. Builders
Steel Co.. 754 F.3d 573,577 (8th Cir. 2014).
Here, Tealeh does not allege direct evidence of discrimination. As such, his claim is
evaluated under the burden-shifting framework of McDonnell Douglas. Under McDonnell
Douglas:
[A] presumption of discrimination is created when the plaintiff meets his burden of
establishing a prima facie case of employment discrimination. . . Once a plaintiff
successfully establishes a prima facie case, the burden then shifts to the employer to
articulate a legitimate, non-discriminatory reason for the adverse employment action. If
the employer meets its burden, the presumption of discrimination disappears, and
plaintiff is required tx> prove the proffered justification is merely a pretext for
discrimination.
Young, 754 F.3d at 577-78, citing Davis v. Jefferson Hosp. Ass'n. 685 F.3d 675, 680 (8th Cir.
2012).
In order to create the initial presumption, Tealeh must establish a prima facie case of
discrimination. The burden of establishing a prima facie case of disparate treatment “is not
onerous.” Toreerson v. City of Rochester. 643 F.3d 1031, 1047 (8th Cir. 2011), quoting Tex.
Deo’t of Cmtv. Affairs v. Burdine. 450 U.S. 248, 259 (1981). To fulfill the elements of a prima
facie case, Tealeh must prove by a preponderance of the evidence that: 1) he is a member of a
protected class; 2) he met his employer’s legitimate expectations; 3) he suffered an adverse
employment action; and 4) the circumstances give rise to an inference of discrimination.
Guimaraes v. SuperValu. Inc.. 674 F.3d 962, 973—74 (8th Cir. 2012). The second element is the
object of some debate, as explained below.

6

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 7 of 25
Defendants argue that Tealeh fails to make a prima facie case of employment
discrimination. While they concede that Tealeh has shown the first and third elements, in that he
is a member of a protected class and suffered an adverse employment action, they argue that
other required elements are lacking.
a.

Whether Tealeh Was a Member of a Protected Class.

Protected classes under Title VII include “race, color, religion, sex, or national origin.”
42 U.S.C.A. § 2000e-2 (a). Here, Tealeh alleges he is being discriminated against on account of
his “national origin, gender, and skin color and/or race.” Tealeh, a black male, was born in
Liberia. Ward County concedes that Tealeh is a member, of a protected class, and the Court
agrees.
b.

Whether Tealeh Met Legitimate Expectations, or, Was Qualified

The second requirement for a prima facie discrimination case is contested. One line of
Eighth Circuit cases applies the requirement that a plaintiff must meet their employer's
“legitimate expectations.” See,

Box v. Principi. 442 F.3d 692,696 (8th Cir. 2006); Martinez

v. W.W. Grainger. Inc., 664 F.3d 225, 230 (8th Cir. 2011). The other line of cases generally
inquires whether “plaintiff was qualified for their position.” See, e.g., Wierman v. Casey's Gen.
Stores, 638 F.3d 984, 993 (8th Cir. 2011). The conflict has been acknowledged by several district
courts. See, e.g.. Shinell v. Saint Francis Med. Ctr.. 24 F. Supp. 3d 851. 859-60 (EJD. Mo.
2014). However, the Eighth Circuit has not yet resolved the issue. In light of these conflicting
precedents, the undersigned will address both standards.
i.

Whether Tealeh met the legitimate expectations of his
employer.

7

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 8 of 25

In this motion for summary judgment, Ward County bears the burden of identifying the
portions of the record demonstrating the absence of a genuine issue of material fact. Torgerson,
supra, at 1042.
Ward County cites extensively to the record to show the lack of factual question
regarding Tealeh's performance. The affidavits provided by Tealeh's supemsors and co-workers
unanimously and specifically criticize his work, Ms. McCarty, Ms. Dyke, Ms. Jensen, and Ms.
Richter all observed Tealeh performing interviews of children and caregivers, which was a
substantial part of his job. Their statements detail inadequacies in Tealeh's approach,
highlighting specific examples like making a child cry and introducing himself to a caregiver by
accusing the caregiver of child abuse, see Doc. No. 40,

19 and Doc. No. 44., ^ 15, as well as

more persistent deficiencies such as failure to develop rapport with interviewees, failure to use
appropriate tone with children, failure to exhibit empathy or sympathy, etc. See generally Doc.
Nos. 40, 42, 43, 44. In addition to struggling with these “remedial” social work skills, he
apparently struggled to obtain information during interviews (Doc. No. 40, ^ 12) and with
documenting the information he did obtain (Doc. No. 44, ^ 17-18).
The evidence submitted by Ward County shows that Tealeh's supervisors and co-workers
made substantial efforts to support and, later, salvage his employment, such as providing
extensive training and specific instructions, bringing him along to shadow more experienced
workers as they performed interviews, accompanying him as he performed interviews, and, once
he was placed on a performance improvement plan, starting back at “square one” and reviewing
all remedial aspects of his job, one-on-one. (Doc. No. 40, % 16-17; sge generally Doc, Nos. 4045).

8

Case l:17-cv-00105-Dl.H-CRH Document 60 Filed 02/03/20 Page 9 of 25
In addition to explaining Tealeh's job-related deficiencies, Ward County also points to
complaints by female employees, who felt that comments made by Tealeh constituted
harassment. See, &g., Doc. Nos 42, f 10 (Tealeh asking female co-workers if he could watch
them exercise); Doc. No. 43, % 7 (Tealeh suggesting that he and a female co-worker travel
together and share a bed).
In addition to these affidavits from Tealeh's supervisors and co-workers, Ward County
cites documentation created during his employment The various drafts of his performance
evaluation, produced over several rounds of revisions in January and February 2016, show the
same concerns reflected in the affidavits, as do the emails of Director Melissa Bliss and Child
Protective Services Supervisor Sandra Richter as they discuss the preparation of this document.
See Doc. Nos. 44-2, 44-3, 44-5, 44-6, 44-7, 44-9, 45-11, 45-13. There are several drafts of the
performance evaluation in the record. See,

Doc. No. 45-13. Some of the changes between

drafts appear to have worked in Tealeh's favor, such as Bliss’s March 2016 revision of the
document to include Tealeh's side of the story regarding the harassment allegations. (Doc. No.
45-10, pp. 6-7).
In May 2016, Ward County’s concerns with Tealeh's performance are ultimately
summarized in his termination letter, which Tealeh signed (although he later refused to sign a
second copy). (Doc. Nos. 45-16,45-18).
With this evidence, Defendants have successfully identified the portions of the record
demonstrating the absence of genuine issues of material fact regarding Tealeh's failure to meet
Ward County’s expectations.
Of course, the inquiry does not end here. Tealeh still has the opportunity to submit
evidentiary materials setting out specific facts showing a genuine issue for trial, Toreerson v_

9

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 10 of 25
City of Rochester 643 F.3d at 1042, without merely relying on denials and allegations,
Lonesome Dove. 889 F.3d at 514.
Tealeh asserts generally that summary judgment is inappropriate because genuine issues
of material fact remain. While he docs not respond specifically to Defendants’ claims, the Court
can discern the portions of his arguments that seem responsive to Defendants’ claims on this
issue.
Some of Tealeh’s opposition to Ward County’s claims comes in the form of written
denials within the body of his response. For instance, apparently in response to Defendants’
claims that Tealeh was unable to conduct interviews with both adults and children, he writes:
77.
78.
79.

Plaintiff denies any failure to adequately engage children in the interview
process and whatsoever.
Plaintiff never ordered any child to be still during any interviews and denies
whatsoever.
Plaintiff denies not been able to interview any adults and denies whatsoever.

Id, at H 77,78.
However, Tealeh may not rely on “mere denials and allegations” to overcome a motion
for summary judgment. Lonesome Dove. 889 F.3d at 514, These blanket assertions do little to
establish the presence of a genuine issue of materia! fact.
Tealeh also points to the evidence of record in making his case. For instance, he cites
Defendants’ performance evaluations for the proposition that he was good at following
instructions and treated others with care and respect, attaching as ejthibits his performance
evaluations. (Doc. Nos. 52-18, 52-19).
While it is indeed true that Tealeh was rated as “meets expectations” in the categories of
“positive attitude with staff’ and “cooperation,” he received scores of “needs improvement” in
many other categories, such as job knowledge, quality of work, productivity', client courtesy,

10

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 11 of 25
initiative, etc. Id It is eminently clear to anyone who reads this evaluation that Tealeh's
performance was not meeting expectations. The fact that he did not receive "needs
improvement” in every category does not create a genuine issue of material fact regarding his
performance. And Tealeh does not attach any of his own evidence to demonstrate otherwise.
After careful review, it is clear that no reasonable jury could find that Tealeh was meeting
Ward County’s legitimate expectations. Ward County entitled to summary judgment on the first
element of the prima facie case when the standard is given as “meets legitimate expectations.”
if.

Whether Tealeh was qualified for the position.

In contrast, when the question is whether Tealeh “was qualified,” he succeeds in showing
a material issue of fact for trial. According to his resume, he graduated with a bachelor’s degree
in social work and had several relevant positions before applying for the job at Ward County.
See, e.g.. Doc. No. 52*5, 52-15. Indeed, according to Tealeh’s performance review from Ward
County, he was “selected for the position based on citation of a Bachelor of Social Work degree
and experience he stated he had in engaging families and assessing allegations of abuse or
neglect while employed in New York and as a Truancy Case Manager in Pennsylvania.” (Doc.
No. 45-13). While it appears that certain supervisors did begin to question whether Tealeh's
training was adequate, gee Doc. No. 45,

25, a jury could reasonably find that he possessed the

requisite qualifications.
Thus, if the second element of a prima facie case of discrimination is given as “qualified
for the position,” Tealeh makes the requisite showing to survive summary judgment on this
particular issue.
c.

Adverse employment action.

n

Case l;17-cv-Q0105-DLH-CRH Document 60 Filed 02/03/20 Page 12 of 25

An adverse employment action means “a material employment disadvantage, such as a
change in salary, benefits, or responsibilities. Mere inconvenience without any decrease in title,
salary, or benefits is insufficient to show an adverse employment action.” Sallis v. Univ. of
Minn.. 408 F.3d 470,476 (8th Cir. 2005) (internal citations omitted).
Defendants claim that the only possible adverse employment action which Tealeh
suffered was his termination. Tealeh does not directly respond to this contention. His Complaint,
in the section entitled “Disparate Treatment Claim,” Ifi] 48-57, appears to allege that his
exclusion from “the supervisory meeting for the County,” and/or possibly several other meetings,
was an adverse employment event His response to die summary judgment motion also repeats
several other incidents he felt were discriminatory, such as his difficulty signing up for child
welfare training due to Defendants1 alleged submission of the incorrect name.
As a matter of law, “mere inconveniences” such as exclusion from a meeting or difficulty
signing up for training, do not themselves constitute adverse employment events. Tealeh suffered
an adverse employment action, but only one: his termination.
d.

Circumstances give rise to an inference of discrimination.

To make a prima facie case of employment retaliation, Tealeh must lastly show that the
circumstances surrounding his termination give rise to an inference of discrimination.
Tealeh may show pretext, among other ways, by showing that Defendants “(1) failed to
follow its own policies, (2) treated similarly-situated employees in a disparate manner, or (3)
shifted its explanation of the employment decision.” Young v. Builders Steel Co.. 754 F.3d 573,
578 (8th Cir. 2014).

12

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 13 of 25

The primary way Tealeh attempts to show pretext is by alleging that similarly-situated
employees were treated differently. The test for whether employees are “similarly-situated” for
the purposes of establishing discrimination is as given below:
The test to determine whether individuals are similarly situated is rigorous and
requires that die other employees be similarly situated in all relevant respects before the
plaintiff can introduce evidence comparing herself to the other employees.” Chism v.
Curtner, 619 F.3d 979, 984 (8th Cir.20I0) (internal quotation omitted). In a case
involving allegations of discriminatory disciplinary practices, for example, this court
explained that "[t]o be similarly situated, the comparable employees must have dealt with
the same supervisor, have been subject to the same standards, and engaged in the same
conduct without any mitigating or distinguishing circumstances.” Tolen v. Ashcroft 377
F.3d 879, 882 (8th Cir.2004)
Bennett v. Nucor Coro.. 656F.3d 802, 819 (8th Cir. 2011).
In addition to arguing generally that the circumstances of Tealeh’s employment do not
give rise to an inference of discrimination, Ward County points specifically to the lack of
evidence that any similarly-situated employee was ever treated differently.
In his complaint, Tealeh invokes the relevant language. For instance:
Defendant Richter began to treat Plaintiff increasingly worse then other similarly
situated employees. For examples, Defendant published unsubstantiated allegations about
Plaintiff, excluded him from the Ward County Child Protection Services Workers
Supervisory meetings, refused to address his concerns, forced him to conceal his official
name and made him to use a different name while working for the defendant and
pressured him to change his name, intimidated him, disparaged him, made him to feel
fear and/ or anxiety, unsafe, alienated and terminated his employment.
(Doc. No. 1, f 77).
But Tealeh alleges no facts at all about these supposedly comparable workers beyond the
conclusory recitation that his treatment was “worse” than theirs. He gives no clue as to their
identities, characteristics, job titles, or disciplinary histories. Tealeh does not establish whether or
not these hypothetical comparators are similarly situated to him in any respect, let alone “all

13

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 14 of 25

relevant respects.” Overall, Tealeh fails to even attempt to make the requisite showing regarding
similarly-situated co-workers.
Without the showing that a similarly-situated employee was treated differently, Tealeh
has no grounds to argue that his termination was anything other than it appears. And it appears
that his termination was in response to his well-documented performance issues. His conclusory
statements to the contrary fail to establish a genuine issue of material fact.
e.

Conclusion on Disparate Treatment Claim

As explained above, to survive Defendant’s motion for summary judgment, Tealeh
needed to create an inference of unlawful discrimination under the burden-shifting analysis of
McDonnell Douglas. Here, Tealeh failed to establish a prima facie case of employment
discrimination, and the Defendant’s motion for summaty judgment should be granted as to
Tealeh's disparate treatment claims.
Notable, even if Tealeh had established a prima facie case, he would have failed at the
second step of the McDonnell Douglas analysis. At that step, the burden would shift back to
Ward County to articulate a legitimate, non-discriminatory reason for Tealeh’s termination.
Without repeating the evidence discussed above (particularly in subsection b., “Whether Tealeh
met the legitimate expectations of his employer”), they have done so resoundingly. The record
clearly shows the well-documented reasons for Tealeh's termination, and Tealeh fails to raise a
genuine issue of material fact on the issue.
2.

Retaliation Claims

Tealeh includes two claims of retaliation in his complaint: “Act of Retaliation,” at 1 5864, and “Retaliatory termination Claim,” at % 116-123. In moving for summary judgment,
Defendants argue that he fails to establish a prima facie case of retaliation.

14

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 15 of 25
A prima facie case of retaliation requires a plaintiff to show: (1) they engaged in
protected activity, (2) they suffered an adverse employment action, and (3) a causal connection
exists between the two. ghirrell v. St Francis Med. Ctr.. 793 F.3d 881, 888 (8th Cir. 2015),
citing Brannum v. Missouri Department of Corrections. 518 F.3d 542, 547. (8th Cir. 2008).
When the evidence of retaliation is indirect, as it is here, courts proceed with the burden-shifting
McDonnell Douglas analysis. Shin-ell, 793 F.3d at 888.
a.

Protected Activity

“Protected activity” has two primary categories: it can mean either opposing an act of
discrimination made unlawful by Title VII, or, participating in an investigation under Title VII.
Hunt v, Nebraska Public Power Dist.. 282 F.3d 1021, 1028 (8th Cir. 2002).
While Tealeh did eventually request an investigation under Title VII, he did not file his
“Charge of Discrimination” with the Equal Employment Opportunity Commission and the North
Dakota Department of Labor and Human Rights until December 2016, over seven months after
he was fired. (Doc. No. 1-1, p. 6). As such, the requisite causal connection between the
investigation and the termination cannot be shown.
Thus, Tealeh's only hope of establishing "protected activity” is by showing that he
"opposed an act of discrimination made unlawful by Title VII ”
Tealeh does make some allegations concerning his opposition to unlawful acts, writing:
"Defendant Bliss retaliated against [Tealeh] because he engaged in protected activities by
opposing Defendant Richter unlawful act, such as forcing Plaintiff to violate public policy by
demanding him to use unofficial name for official duty.” Id. at f 61. The Court interprets this
statement to mean that Defendant’s demand that Tealeh use his unofficial name was an

15

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 16 of 25

“unlawful act” in violation of Title VII, and furthermore that Defendant fired Tealeh in response
to his opposition to this act. As such, this Court must wade into the issue of Tealeh’s name.
Tealeh was bom with the first name “Chris” in 1974 (Doc. No. 52-2). In 2013, upon
naturalization, he legally changed his first name to “Flomo.” (Doc. No. 52-2). He applied to
Ward County in 2015 with both names, using “Flomo” on his online application but “Chris” on
his resume. (Doc. No. 38-1,38-2).
According to Tealeh, he requested during his interview that he be addressed as “Flomo.”
(Doc. No. 1, f 30). Tealeh states in his Complaint what happened next:
Commencing in or about October 2015, the defendant rejected Plaintiffs request, and
manufactured or printed dozens of business cards with the name “Chris" and presented
them to Plaintiff and demanded him to use the cards when performing his official duty.
Defendant Richter directed Plaintiff to give the cards to clients when he goes into the
field. Defendant Richter essentially directed Plaintiff to reject and conceal his native
name (legal name “Flomo'' Tealeh) when in the field. Plaintiff immediately rejected this
treatment and informed defendant Richter that he wanted his legal name printed on the
cards and Plaintiff asked defendant Richter to make the correction. Defendant Richter
rejected Plaintiffs request and generally stated it was better to use western name;
essentially saying that it sounds better.

Later in his complaint, Tealeh writes,
Plaintiff believes the defendant did not want him to use Flomo because it is native,
foreign and does not sound good to the defendant. In addition, Plaintiff believes
Defendant Richter treated him in this manner because of his national origin,
Id. at 1| 34.
In their motion for summary judgment, Defendants vehemently deny the suggestion that
their use of “Chris” was motivated by anything other than their reasonable belief that “Chris”
was what Tealeh wished to be called. Defendants point initially to Tealeh's resume, which gives
his name as “Chris Tealeh” (Doc. No. 38-1). According to Sandra Richter, his supervisor, Tealeh

16

Case l:17-cv-00105-DUH-CRH Document 60 Filed 02/03/20 Page 17 of 25
said he wished to be called "Chris” at his interview, which she indicated in her handwritten notes
by writing "(Chris)” after "Flomo” on the line for his name. (Doc. No. 44 at f 7, Doc. No. 44-1).
After the interview, Ward County’s offer letter to Tealeh addressed him as "Chris.” (Doc. No.
45-3). Richter testified that she never told Tealeh that he could not use "Flomo” on his business
cards. (Doc. No. 44, f 9).
Other Ward County employees state in their affidavits that Tealeh indicated he wished to
be called "Chris.” (Doc. No. 42, f 9, Doc. No. 43, f 4). The Director of Social Services, Melissa
Bliss, explained that it was her understanding that “Chris” was Tealeh’s preferred name. (Doc.
No. 45, f 17).
Defendants aiso include documentary evidence showing Tealeh's preference for “Chris.”
One exhibit consists of Tealeh's direct deposit form, setting up his paychecks when he started his
employment (Doc. No. 45-5). On it Tealeh has written: "Connie, please deposit $500 to this
account each pay period ...” and signed his note “Chris.” Defendants also include an email sent
by Tealeh on February 12,2016, signed “Chris Tealeh.” (Doc. No. 44-8).
Overall, Defendants argue that there is no evidence that the use of "Chris” instead of
“Flomo” constituted unlawful discrimination. As such, they contend that Tealeh cannot meet the
element of protected activity.
In his response to Defendants’ motion for summary judgment, Tealeh writes at length
regarding the name change. He specifically denies some of the claims in Defendants’ affidavits.
See. e._g.t Doc. No, 53, ]\ 46 (“Plaintiff never told Ms. Jensen that he wanted to be called Chris or
introduced himself to Ms. Jensen as ‘Chris;’” and has no knowledge about been asked how he
would like to be introduced to individuals.”) He asserts that Sandra Richter told him “‘Chris
Tealeh’ sounds better” and repeats his claim that she refused his request to issue new business

37

Case 1:17“CV-00105-DLH-CRH Document 60 Filed 02/03/20 Page 18 of 25

cards. He claims that she “forced [him] to sign a report bearing different name rather than
Plaintiffs formal name, harassing Plaintiff to change his name.” Tealeh also attaches copious
documentary evidence, such as his driver’s license, Social Security card, and background check
with the name “Flomo,” as well as an example of the business cards. (Doc. No. 54-3,54-5, 54-6).
Yet despite these efforts, Tealeh fails to raise a genuine issue of material fact on the issue
of protected activity.
First, despite his assertions, the fundamental facts here aren’t disputed. Several of the
exhibits submitted by Tealeh were already submitted by Defendants: e.g., his offer letter
addressed to “Chris.” These exhibits do nothing for Tealeh's case; they simply confirm the
Defendants’ position: they thought Tealeh went by “Chris." Similarly, other facts Tealeh so
vigorously asserts - i.e., that Flomo was his legal name, and the business cards said “Chris” - are
not at all incompatible with the Defendants’ position, which is that they thought that Tealeh went
by his birth name rather than his legal name.
There are some areas where the parties do appear to disagree - for instance, Tealeh states
that Richter explicitly forbade him from putting “Flomo” on his business cards, and harassed him
to change his name. Richter denies this. (Doc. No. 44, ^ 6-10, 40-41). Tealeh also appears to
argue feat he never submitted the resume saying “Chris” to Defendants, but rather gave them one
that said “Flomo.” (Doc. No. 53 atf 8).
But these disputes do not rise to the level of a genuine issue of material fact. The Court’s
duty is to inquire whether fee evidence presents a sufficient disagreement to require submission
of fee case to a jury, or whether the evidence is so one-sided that one party may prevail as a
matter of law. Diesel Mach.. Inc, v. B.R. Lee Indus.. Inc.. 418 F.3d 820, 832 (8th Cir. 2005).
This case falls into the latter category. Tealeh cites no evidence showing that Richter “harassed”

18

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 19 of 25
him to change his name, merely repeating his allegations. Yet it is not enough for him to rely on
the allegations in his pleadings. Lonesome Dove, supra, at 514. And even if Tealeh originally
submit a resume that said “Flomo” instead of “Chris” to apply to the job, Defendants’ use of the
name “Chris” was still justified as Tealeh himself continued to use the name in notes and emails.
The record firmly establishes that Tealeh used both names, leading to confusion on
Defendants* part No jury could reasonably conclude this confusion constitutes unlawful
discrimination. As such, there was no “unlawful” activity for Tealeh to oppose, and he fails to
meet the first element of retaliation as a matter of law.
b.

Causal Connection

Even if Tealeh did establish his participation in protected activity, however, his claim for
retaliation would fail on the third element, where he would have to prove that his “protected
activity” had a causal connection to his termination. To show a causal connection, a plaintiff
must show that her protected activity was a but-for cause of her employer’s adverse action.
Shirro] h 793 F.3d at 888, citing Univ, of Tex. Sw, Med Ctr. v. Nassar. 570 U.S. 338, 133 S.Ct.
2517, 2534 (2013). Tealeh has failed to point to any portions of the record which raise a genuine
factual issue as to the cause of his termination. But even if Tealeh did succeed in showing a
prima facie case, reaching step two of the McDonnell Douglas burden-shifting analysis,
Defendants should still prevail as they have overwhelmingly established their legitimate
rationale for Tealeh's termination, as detailed above.
In conclusion, even viewing this record in the fight most favorable to Tealeh, I
recommend that Defendants be granted summary judgment on the retaliation claims.
3.

Hostile Work Environment Claims

19

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 20 of 25

Sections Three and Four of Tealeh's complaint, “Hostile Work Environment Claim” and
“Harassments/Intimidations and Disparagements of Plaintiff ” are apparently to be read together.
In paragraph 65, Tealeh claims a hostile work environment in violation of Title VII, and lists
various “harassments” and “intimidations” in paragraphs 66 through 75 to support this claim.
The section titled “Failure to Investigate Complaints and Prevent Discrimination Claim,” starting
at paragraph 111, will also be analyzed here as it appears to allege Defendant’s failure to prevent
the existence of a hostile work environment.
The test for a hostile work environment changes depending on whether the hostility stems
from a supervisor or co-worker. When a supervisor is responsible, four requirements must be
met:
(1) The plaintiff belongs to a protected group; (2) the plaintiff was subject to unwelcome
harassment; (3) a causal nexus exists between the harassment and the plaintiffs protected
group status; and (4) the harassment affected a term, condition, or privilege of
employment...
Gordon v. Shafer Contracting Co.. 469 F.3d 1191, 1195 (8th Cir. 2006) (internal citations
omitted).
When a co-worker is responsible for the alleged conduct, all of the above requirements
apply, plus one more:
In addition, for claims of harassment by non-supervisory personnel, [plaintiff] must
show that his employer knew or should have known of the harassment and failed to take
proper action.
Gordon. 469 F.3d 1195.
A hostile work environment exists when “the workplace is permeated with discriminatory
intimidation, ridicule, and insult that is sufficiently severe or pervasive to alter the conditions of
the victim's employment and create an abusive working environment.” ]d. at 1194.

20

Case l:17-cv-001Q5“DLH-CRH Document 60 Filed 02/03/20 Page 21 of 25
“For a hostile work environment claim to succeed, the alleged conduct “must be [so] extreme”
that it amounts to a “change in the terms and conditions of employment.” Faraeher v. City of
Boca Raton. 524 U.S. 775, 786-88,118 S.Ct 2275, 141 L.Ed.2d 662 (1998). Offhand comments
and isolated incidents of offensive conduct (unless extremely serious) do not constitute a hostile
work environment. Id. at 788, 118 S.Ct. 2275, Burkett v. Gtickman. 327 F.3d 658, 662 (8th Cir.
2003).
In his complaint and throughout the litigation, Tealeh lists a number of incidents as
evidence of a hostile work environment. In their motion for summary judgment, defendants
contend that Tealeh's allegations are devoid of evidentiary support.
Tealeh’s claims of a hostile work environment are varied. Some of them relate to his
supervisor, Sandra Richter, and her expression of negative emotions towards him. For instance,
Tealeh writes, “Richter had a look of annoyance in her face whenever she encountered Plaintiff
in the workplace.” (Doc. No. 1, f 66). and “Richter exhibited frustration and directed anger at
Plaintiff for the fact that Plaintiff opposed Defendant demands to use a deferent name.” (Doc.
No. 1, 66,68). Tealeh ultimately alleges:
Defendant Richter's act of anger toward him were physically threatening, humiliating and
sufficiently severe and pervasive so as to unreasonably interfere with Plaintiff's physical
and emotional health, work performance, and work conditions, in violation of Title VII of
the Civil Rights Act of 1964.
(Doc. No. 70, % 69).
Despite Tealeh's recitation of the legal elements in his allegations, he fails to raise an
issue of material fact for trial. In conclusory fashion, Tealeh describes Richter’s actions as
“physically threatening,” yet he fails to explain how her any of her behavior merits this
description. He further fails to explain how his feelings of stress and anxiety caused by his

21

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 22 of 25

*

supervisor's looks of annoyance and/or anger interfered with his job performance. Tealeh's
vague allegations are insufficient to raise a genuine issue of material fact on the issue of any
harassment whatsoever let alone the severe harassment required for a prima facie case.
Tealeh also mentions Richter's “demands for plaintiff to conceal his name” as an
example of workplace hostility. As concluded above, no jury could reasonably find on this
record that the use of “Chris” was intended maliciously. Tealeh's claim of intimidation by
“writing; printing and distributing unsubstantiated accusations against him in the workplace”
appears to be an oblique reference to his negative performance review. Even imagining that a
negative performance review could serve as the basis of a hostile work environment claim,
Tealeh points to no evidence showing that the contents of his review were "unsubstantiated.”
Tealeh cites several further grounds for claiming hostile work environment in his
deposition. While the exact claim is not clear, Tealeh appears to allege that a mix-up regarding
the name on his identification card and/or computer, which was connected to a delay in training
registration, led to a hostile work environment (Doc. No. 39-1 at p. 87-93). But according to his
own testimony, Tealeh ultimately attended the training. (Id. at 93). Such inconveniences as those
described by Tealeh rise nowhere near the level of “discriminatory intimidation, ridicule, and
insult” required for a claim of hostile work environment
Tealeh also cites an incident involving an argument with a co-worker after he received a
traffic ticket in January 2016. See Doc. No. 1, *$ 34, 36; Doc. No. 39-1, 97-100. His fullest
explanation of the event is found in his Objection to Defendants' Summary Judgment Motion:
About January 20, 2016, Plaintiff and coworkers were talicing about traffic ticket at the
office. Plaintiff said he got a ticket for failure to signal. .. Plaintiff showed Ms. Jensen
the ticket the following day. Here is a copy of the traffic ticket that Plaintiff showed Ms
Jensen, Exhibit 24. Ms. Jensen looked at the ticket and told Plaintiff the Officer who
issued the ticket was her best friend. Plaintiff told her a hearing was already scheduled.

22

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 23 of 25
Hear is the hearing notice Plaintiff told Brian about, Exhibit 12. She told Plaintiff to not
fight the ticket. She told Plaintiff $20 is nothing and said just pay. Plaintiff told her if that
how she feels then she should pay. Ms. Jensen then said she got pulled over for speeding
in the past. She told Plaintiff she was crying but luckily for her the officer knew her
mother. She told Plaintiff the officer let her go but told her to be careful. Plaintiff told her
that he wasn't her and that he will have to look at his dash cam video to verify whether he
failed to signal, copy of the dash cam videos are included, Exhibit Traffic Ticket
&Videos Files, USB drive. She said that Plaintiff was playing a "race card". When
Plaintiff told her to look at statistical data regarding black males been stopped by officers
disproportionaily, she got angry and walked out of Plaintiffs office following a few
disagreements. Plaintiff noticed she was meeting Defendant Richter and she stayed in her
office for a length of time. On two occasions, Plaintiff attempted to meet with Defendant
Richter, but Defendant Richter told Plaintiff she was meeting with Ms. Jensen.
53. About January 29, 2016, Defendant Richter met with Plaintiff and suddenly gave
him a report to sign. Plaintiff read the report and but told Defendant Richter he would not
sign it because Defendant Richter falsely accused him without a chance to defend himself
against his accuser. At this juncture, Plaintiff began to feel that Defendant Richter and
Ms. Jensen have conspired to smear Plaintiffs reputation and terminate his employment.
The report was not a draft as Defendant Bliss clamed.
(Doc. No. 52, 52-53).
Tealeh’s allegations - that as a result of his argument with Jensen, Jensen and Richter
conspired against him and put false statements in his performance review - do not have any basis
in the record. Tealeh seems to reason that because Richter met with Jensen at some unspecified
point after he and Jensen argued, Richter and Jensen must have been conspiring against him. But
there are boundless reasons why two employees could meet. Furthermore, the reconi is clear that
concerns with Tealeh’s employment predated any conversation on January 20, 2016. See, e.g.
Doc. No. 44 at f 13, 14 (Richter accompanied Tealeh on a home visit at the end of December
2015 based upon previous reports from lead workers that he had not made any progress during
initial probationary period). At any rale, the simple facts that Tealeh argued with a co-worker,
that the co-woricer later met with a supervisor, and Tealeh eventually received a poor
performance review, do not rise to the level of a hostile work environment.

23

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 24 of 25

v

Overall, Tealeh fails to identify any portion of the record from which a jury could
reasonably conclude that Defendants created an environment “permeated with discriminatory
intimidation, ridicule, and insult that is sufficiently severe or pervasive to alter the conditions of”
Tealeh's employment. See Gordon. 469 F.3d at 1194. Defendants are entitled to judgment on the
hostile work environments claims.
As stated above, Tealeh also brings the claim of “Failure to Investigate Complaints and
Prevent Discrimination.” (Doc. No. 1 at ^ 111). He states that “Defendant failed to fulfill their
statutory duty to take all necessary steps to prevent the discrimination, harassment, intimidation
and retaliation from occurring in the workplace as required by Title VII..Id.
As stated above, the conduct Tealeh complains, to the extent that it occurs at all, does not
rise to the level of discrimination and harassment As such, Defendants cannot be liable for
failing to prevent it Summary judgment is warranted on the issue of hostile work environment
and all related claims.
4.

Claims Under North Dakota Law

At the outset of his Complaint, Tealeh states that these claims are being brought to Title
VII of the Civil Rights Act at the outset of the case. Additionally, at several points in the body of
his pleading, he alleges that the Defendants* actions violated not only Title VII but “any related
claims under North Dakota law.”
Tealeh did not provide further specifics as to what this North Dakota law might be. But in
the words of the North Dakota Supreme Court, Title VII has “obvious parallels” with the North
Dakota Human Rights Act Qpp v. Source One Menu.. Inc.. 1999 ND 52. 12 (1999). The North
Dakota Supreme Court in fact looks to federal interpretations of Title VII for guidance in
interpreting the N.D.H.R.A. See generally Qpp. supra. Defendants raise a compelling argument

24

* **

Case l:17-cv-00105-DLH-CRH Document 60 Filed 02/03/20 Page 25 of 25

regarding the barring of Tealeh's state law claims by the applicable statute of limitations. But
even if these claims are not barred, due to the parallel nature of the state and federal laws, the
failure of Tealeh's claims under Title VII means that his state law assertions would also fail
against all defendants and as to all claims. See generally Brown v. Plying J. Inc.. No. 1:08-CV059,2009 WL 2516202, at *13 (D.N.D. Aug. 14,2009).
IV.

Conclusion and Recommendation
For the foregoing reasons, I recommend that Defendants’ Motion for Summary Judgment

(Doc. No. 37) be GRANTED, and that Tealeh’s complaint be DISMISSED with prejudice as to
all parties and all claims.
NOTICE OF RIGHT TO FILE OBJECTIONS
Pursuant to D.N.D. Civ. L. R. 72.1(D)(3) any party may object to this recommendation
within fourteen (14) days after being served with a copy of this Report and Recommendation.
Failure to file appropriate objections may result in the recommended action being taken.

Dated this 3rd day of February, 2020.
A/ Clare R. Hochhalter
Clare R. Hochhalter
United States Magistrate Judge

25

Casel:17-cv-00105-DLH-CRH Document74 Filed 05/15/20 Page lot4

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
Flomo Tealeh,
Plaintiff,
vs.
Ward County, Sandra Richter, Melissa
Bliss, and John Does 1-200, Inclusive,
Defendants.

)
)
)
)
)
)
)
)
>
)

REPORT AND RECOMMENDATION

Case No.: I:17-cv-105

Before the Court is Defendants* Motion for Costs (Doc. No. 66). The presiding judge,
Judge Hovland, has referred tills motion to the undersigned Magistrate Judge for preliminary
consideration. For the reasons given below, I recommend that the Motion for Costs be
GRANTED.
I.

Background
Plaintiff Flomo Tealeh filed the underlying employment discrimination suit on May 23,

2017. (Doc. No. 1). Defendants moved for summary judgment on February 22, 2019, and their
motion was granted on February 25, 2020. (Doc. Nos. 37, 64). Judgment was entered that same
day for Defendants. (Doc. No. 65).
On March 10, 2020, Defendants filed a Motion for Costs together with a statement of
costs and an affidavit. (Doc. Nos. 66 and 67). Tealeh has not filed a response.
II.

Analysis
Rule 54(d) of the Federal Rules of Civil Procedure allows district courts to tax costs in

favor of a prevailing party. Stanley v. Cottrell. Inc.. 784 F.3d 454, 464 (8th Cir. 2015). The
Eighth Circuit Court of Appeals has explained Rule 54(d) “represents a codification of the

I

ADD III

Case l:17-cv-00105-DLH-CRH Document 74 Filed 05/15/20 Page 2 of 4
presumption that the prevailing party is entitled to costs.** Greaser v. Missouri Dep*t of
Corrections. 145 F.3d 979, 985 (8th Cir. 1998).
28 U.S.C. § 1920 defines the expenses that may be taxed pursuant to this rule. Stanley.
784 F.3d at 464. These include:
(1)

Fees of the clerk and marshal;

(2)

Fees for printed or electronically recorded transcripts necessarily
obtained for use in the case;

(3)

Fees and disbursements for printing and witnesses;

(4)

Fees for exemplification and the costs of making copies of any
materials where the copies are necessarily obtained for use in the case;

(5)

Docket fees under section 1923 of this title;

(6)

Compensation of court appointed experts, compensation of interpreters,
and salaries, fees, expenses, and costs of special interpretation services
under section 1828 of this title.

28 U.S.C. § J920.
Local Civil Rule 54.1 sets forth various requirements for a party seeking costs, including
an obligation to ‘'verify the statement of costs by affirming that the items are correct, the services
were actually and necessarily performed, and the disbursement were necessarily incurred.”
Failure to meet the requirements of the Local Rule “may be deemed a waiver of any or all of the
claim for costs.” L. Civ. R. 54.3(A)(1).
Local Civil Rule 54.3 also sets forth the procedures for objecting to die claimed costs:
Each party objecting to the claimed costs must serve and file a response
within fourteen (14) days of being served that (i) sets forth specific objections to
each item of cost being disputed, along with citation to any authority for not
awarding the item or categoiy of cost, and (2) has attached to it as exhibits any
supporting documents that will be relied upon lo contest the claim of costs. A
party’s failure to object to a specific item of cost may be deemed a waiver of any
objection to the claimed item.

2

Case l:17-cv-00105-DLH-CRH Document 74 Filed 05/15/20 Page 3 of 4

L. Civ. R. 54.1(A)(1).
The losing party bears the burden of overcoming the presumption that the prevailing
party is entitled to recovery of all costs allowable under 28 U.S.C. § 1920.Staniev. 784 F.3d at
464.
In the instant motion, Defendants seek to recover $7.50 in docket fees pursuant to 28
U.S.C. § 1920(5) and 1923, $1,101.50 in court reporter fees pursuant to § 1920(2), and $412.80
in fees for copies of materials pursuant to § 1920(4). They support these amounts with several
invoices and their attorney’s affidavit, verifying that listed costs and disbursements correctly set
forth the services that were actually and necessarily performed and the disbursements which
were necessarily incurred. See Doc. Nos. 67,67-1, and 67-2.
Tealeh, as the losing party, bears the burden of overcoming the presumption that the
Defendants are entitled to these costs. However, he has failed to file any response. Defendants
have complied with the requirements of Local Civil Rule 54.1 and their requested costs are
allowable under 28 U.S.C. § 1920.
III.

Conclusion and Recommendation
For the foregoing reasons, I recommend that Defendants’ Motion for Costs (Doc. No. 66)

be GRANTED.
NOTICE OF RIGHT TO FILE OBJECTIONS
Pursuant to D.N.D. Civ. L. R. 72.1(D)(3) any party may object to this recommendation
within fourteen (14) days after being served with a copy of this Report and Recommendation.
Failure to file appropriate objections may result in the recommended action being taken.

3

Case l:17-cv-00105-DLH-CRH Document 74 Filed 05/15/20 Page 4 of 4

Dated this 15th day of May, 2020.
/?/ Clare R. Hochhalter
Clare R. Hochhalter
United States Magistrate Judge

4

Additional material
from this filing is
available in the
Clerk's Office.

